OIG Investigative Reports, Coushatta Woman and Co-Dependants Sentenced on Fraud Charges
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
FOR IMMEDIATE RELEASE:
June 25, 2007
Office of the United States Attorney
Western District of Louisiana
DONALD W. WASHINGTON
United States Attorney
United States Courthouse
800 Lafayette Street, Suite 2200
Lafayette, Louisiana  70501-7206
(337) 262-6618
COUSHATTA WOMAN AND CO-DEFENDANTS SENTENCED ON FRAUD CHARGES
Student aid fraud results in prison terms
Alexandria, Louisiana — United States Attorney Donald W. Washington announced that ANITA MORRIS, age 35, of Coushatta, Louisiana, was sentenced by U.S. District Judge Dee D. Drell to spend 33 months in prison for charges of conspiracy to commit student aid fraud and bank fraud in a scheme in which she and others submitted false student aid applications to Northwestern State University (NSU) in Natchitoches and caused student aid and bank loans to be paid to MORRIS and others who were not qualified to receive the student aid. MORRIS was also ordered to pay $30,541 in restitution to the U.S. Department of Education (the federal agency which provides student aid funds and guarantees the bank loan to the student).
MORRIS pleaded guilty in March to one count of conspiracy to commit student aid fraud and one count of making false statements on the bank loan application to secure a student loan for herself and others. Testimony at the time of the guilty plea showed that MORRIS solicited individuals in the Coushatta area to apply for student aid even though they had no intent to attend NSU or were not qualified to attend. MORRIS completed the various forms and submitted them with false information including falsely stating that the applicant had graduated from high school or had taken a GED to qualify for admission to NSU. False high school transcripts were submitted on some of the applications.
Also sentenced today for their part in the conspiracy with MORRIS were:
KEVIN MORRIS, age 30, of Robeline, Louisiana, who was sentenced to spend 15 months in prison and ordered to pay restitution in the amount of $6,649; and
RUTH S. FRAZIER, age 56, of Marthaville, Louisiana, who was sentenced to 5 years probation and ordered to pay restitution in the amount of $5,771.
One additional co-defendant, DORRIS MORRIS, is scheduled to be sentenced July 12, 2007.
U.S. Attorney Washington stated: "This family of thieves sought to steal monies provided by the American taxpayer to help the truly needy achieve a college education. Their crimes had the effect of taking dollars from young students who are seeking to make a better future for themselves by acquiring a college degree. Clearly, these defendants are well deserving of the full consequences of a felony conviction."
"I am proud of the work of OIG Special Agents in aggressively pursuing these individuals who sought to enrich themselves by fraudulently obtaining federal education dollars," said John P. Higgins, Jr., Inspector General of the U.S. Department of Education. "We will continue to work with others in law enforcement to protect the integrity of federal education funds."
Sentencing in federal court is determined by the discretion of federal judges and the governing statute. Parole has been abolished in the federal system.
This case was investigated by the U.S. Department of Education, Office of Inspector General, and the Northwestern State University Police Department, and was prosecuted by Assistant U.S. Attorney Robert
W. Gillespie, Jr..
Top
Printable view
Share this page
Last Modified: 06/26/2007
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov